9.0" 6 2

Q

No.

•

IN THE

Hvcud Mcllbq 1-eiMc^

PETITIONER

(Your Name)
,

vs.

tV\,qrk A, L(^Viv\e

- RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Fuxxd i4eiibct|€\MGi
(Your Name)

Pofrox 10^
(Address)

fecvr-t, VT05C4I
(City, State, Zip Code)

Soz- Tm-ns*,

(Phone Number)

i

!;

SUPREME COURT OF THE UNITED STATES

:

j,

QUESTIONS PRESENTED

1) Whether the Existence of another Adequate Remedy does
preclude a Judgment for Declaratory Relief given the Facts
and Law on the Record, whether the Vermont’s court of last
resort has decided on important question of Law that has not
been, but should be, settled by the US Supreme Court?

2) Do Commissioner-created rasping, non-statutory restricted
conditions inflicted upon Petitioner’s business constitute a
deprivation of property without due process of Law under
the Fourteenth Amendment?

3) Does weekly Petitioner’s business data reporting as part of
conditions requirement to Commissioner for the purpose of
obtaining information constitute a search under the Fourth
Amendment?

ii

a

LIST OF PARTIES
All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

1. Fuad Ndibalema {Petitioner)
2. SNFFRESHSTART, LLC, d/b/a SamosaMan Natural
Food (Petitioner)
3. Mark A. Levine (Respondent)

RELATED CASES AND OPINIONS BELOW
•

SNFFRESHSTART, LLC & Fuad Ndibalema, v. Mark A. Levine, No.
2020-162, Vermont Supreme Court, Decision denying Review entered
June 15, 2020 and appears at (APP—B) and Order Denying
Reconsideration of the same was entered on July 17, 2020 (APP—A).

•

SNFFRESHSTART, LLC, d/b/a SamosaMan Natural Food & Fuad
Ndibalema, v. Mark A. Levine, No. 2020-107, Vermont Supreme Court,
Order entered on April 7, 2020 dismissing Intermediate Direct Appeal
appears at (APP—F) and Order Denying Reconsideration of the same was
entered May 01, 2020 appears at (APP—E)

•

Fuad Ndibalema & SNFFRESHSTART, LLC, d/b/a SamosaMan
Natural Food, v. Mark A. Levine, No. 130-3-19 Wncv, Vermont Trial
Court, Washington Co. Civil Division. Opinion and Order entered January
31, 2020 (APP—C) and Order Denying Reconsideration of the same was
entered on February 24, 2020 (APP—D).

iii

TABLE OF CONTENTS

QUESTIONS PRESENTED

11

LIST OF PARTIES

in

INDEX TO APPENDICES

v

TABLE OF AUTHORITHIES CITED

Vll

OPINIONS BELOW

IX

JURISDICTION,

IX

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

1

STATEMENT OF THE CASE

5

REASONS FOR GRANTING THE WRIT

15

CONCLUSION

16

iv

INDEX TO APPENDICES (APP-A to S)

APPENDIX A (7/17/2020 Order of Vt. Supreme Crt. Denying Reconsideration) lpg
(APP—B) (6/15/2020 Decision of Vt. Supreme Crt. Denying Review of 2020-162) lpg
(APP—C) (1/31/2020 Decision of Vt. Trial Crt. Denying Respt.l2(b)(6)Motion and
All All Pending Motions as moot) lpg
(APP—D) (2/24/2020 Order of Vt. Trial Crt. Denying Petitioner Reconsideration
and Rule 59 Motion) lpg
(APP—E) (5/01/2020 Decision of Vt. Supreme Crt. Denying Petitioner
Reconsideration of Appeal 2020-107Dismissal and V.R.A.P.8(a)(l)(B)
Motion) lpg
(APP—F) (4/07/2020 Decision of Vt. Supreme Crt. Denying Review of
Appeal 2020-107) lpg
(APP—G) (6/10/2020 Vt. Trial Crt. Full Case Mngmt Transmittal of Appeal of
Rule 4(b)(5) to Vt. Supr. Crt.) llpg
(APP—H) (6/25/2020 Petitioner Motion Reconsideration of 6/15/2020 Vt. Supr.
Crt. Decision Denying Review) llpg
(APP—I)

(4/16/2020 Petitioner Motion Reconsideration of 4/07/2020 Vt. Supr.
Crt. Decision Denying Review) lOpg

(APP—J)

(2/14/2020 Petitioner Motion Reconsideration to Alter 1/31/2020 Trial
Crt. Decision) llpg

v

(APP—K)

(12/31/2019 Petitioner Motion for Declaratory Judgment) 6pg

(APP—L)

(12/13/2019 Petitioner Motion for Default Judgment) 2pg

(APP—M) (12/13/2019 Petitioner Motion to Strike Respondent 12(b)(6)Motion) 8pg
(APP—N)

(APP—O)

(10/01/2019 Return of Service by Sheriffs Dept, to Vt. Attorney
General of Material Evidence and Info re: Petition for Injunctive Relief
filed with the Trial-Crt.) lpg
(10/08/2019 Vt. Deputy Attorney General Waiver of Service) lpg

(APP—P)

(01/08/2020 Trial Crt. Tomasi J. Entry Order re: if either party wishes
a recusal, it shall do so within 2 weeks) lpg

(APP—Q)

(4/02/2019 Petitioner Proof of Service filed with the Trial Crt.) 2pg

(APP—R)

(3/13/2019 Petition for Injunctive Relief filed w/ Trial Crt.) lOpg

(APP—S)

(2/01/2019 Petitnr Request for Verification and Acceptance Conditions
and Notice of Claim sent to Respondent) 9pg

vi

TABLE OF AUTHORITIES CITED

CASES

Bingham v. Tenney, 154 Vt. 96, 573 A.2d 1185

11

Greenmoss Builders, Inc. v. Dun Bradstreet, Inc., 149 Vt. 365, 368,
543 A.2d 1320, 1322 (1988)...................................................... ................

8

Hinesburg Sand & Gravel Co. v. State, 166 Vt. 337, 340, 693 A.2d
1045, 1047 (1997)......................................................................................

10

In re Town of Killington, 2003 VT 87A,

16, 176 Vt. 60, 838 A.2d 98. ..11

Matthews v. Huwe, 269 U.S. 262, 265 (1925)

12

Michigan v. Long, 463 U.S. 1032, 1037-1044 (1983)

13

Parker v. Town of Milton, 169 Vt. 74, 76-77, 726 A.2d 477,
480 (1998)....................................................................................

10

Pernell v. Southhall Realty, 416 U.S. 363 (1974)

15

State Highway Board v. Sharrow, 125 Vt. 163, 164, 212 A.2d
72, 73 (1965)...................................................................................

9

Vahlteich v. Knott, 139 Vt. 588, 590, 433 A.2d 287, 288 (1981)

9

vii

STATUTES AND RULES
1 V.S.A. §311, §314

passim

12 V.S.A. § 4711

passim

28 U.S.C. § 1257(a)

1,13

28 U.S.C. § 2201(a)

2

28 U.S.C. § 2201(c)

2

42 U.S.C. § 1981 (a)

1

42 U.S.C. § 1983

1

Vt. Const. Chapter 1, Article VI

2

Vt. Const. Chapter 1, Article XI

2

Vt.R.Civ.P. 3

11,12

Vt.R.Civ.P. 4

11,12

Vt.R.Civ.P. 57

passim

Vt.R.Civ.P. 59

11,12

U.S. Const, art. Ill, §2, cl.l

9

U.S. Const, amend. Art. IV,

1

U.S. Const, amend. Art. XIV,

1

OTHER
A.
Bickel, The Least Dangerous Branch 111-98
(2d ed. Yale Univ. Press 1986) (1962)........................

viii

10

JURISDICTION

The jurisdiction of this Court is invoked under 28 U.S.C. § 1257(a).
The date on which the Vermont Supreme Court decided my case was June 15,
2020. A copy of that decision appears at (APP—B). A timely petition for
reconsideration was thereafter denied on July 17, 2020 and a copy of the
Order denying reconsideration appears at (APP—A).

OPINIONS BELOW

This case began in Vermont Washington County, Civil Division of
Superior court where the trial court ruled on Respondent’s 12(b)(6) Motion to
Dismiss Petitioner’s Amended Motion for Declaratory Judgment (APP—K), in
spite of the fact the Petitioner’s Motion to Strike Respondent’s 12(b)(6)
Motion to Dismiss (APP—M) was not ruled upon and in spite of the fact the
Petitioner’s Motion to enter Final Default Judgment (APP—L) has not been
entered, then wrote the “Statement of Facts and Conclusions of Law,” with no
Petitioner contends that trial-court

reference to the purported record,

Opinion and Order (APP—C) is void as matter of law on its face.
At the appellate court level, the opinion for which review is sought
is cited as SNFFRESHSTART, LLC & Fuad Ndibalema, v. Mark A. Levine,
No. 2020-162, Vermont Supreme Court, Decision denying Review entered
June 15, 2020 and appears at (APP—B) and Order Denying Reconsideration
of the same was entered on July 17, 2020 (APP—A).

ix

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

A. U.S. Constitution Amendment XIV states in part:
No state shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall any state deprive any
person of life, liberty, or property, without due process of law; nor deny to
any person within its jurisdiction the equal protection of the laws.
B. U.S. Constitution Amendment IV states:
The right of the people to be secure in their persons, houses, papers and
effects, against unreasonable searches and seizures shall not be violated,
and no warrants shall issue, but upon probable cause supported by Oath or
Affirmation, and particularly describing the place to be searched, and the
persons or things to be seized.
C. 42 U.S.C. § 1981 (a) states:
All persons within the jurisdiction of the United States shall have the same
right in every State and Territory to make and enforce contracts,... and to
the full and equal benefit of all laws and proceedings for the security of
person and property.
D. 42 U.S.C. § 1983 states:
Every person who, under color of any statute, ordinance, regulation,
custom, or usage, of any state... subjects, or causes to be subjected, any
citizen of the United States or other person within the jurisdiction thereof,
to the deprivation of any rights, privileges, or immunities secured by the
Constitution and Laws, shall be liable to the party injured in action at law,
suit in equity, or other proper proceeding for redress.

1

E. 28 U.S.C. § 1257(a) states:
Final judgments or decrees rendered by the highest court of a State in
which a decision could be had, may be reviewed by the Supreme Court by
writ of certiorari where the validity of a treaty or statute of the United
States is drawn in question or where the validity of a statute of any State is
drawn in question on the ground of its being repugnant to the Constitution,
treaties, or laws of the United States, or where any title, right, privilege, or
immunity is specially set up or claimed under the Constitution or the
treaties or statutes of, or commission held or authority exercised under, the
United States.
F. 28 U.S.C. § 2101(c) states:
Any other appeal or any writ of certiorari intended to bring any judgment or
decree in a civil action, suit or proceeding before the Supreme Court for
review shall be taken or applied for within ninety days after the entry of
such judgment or decree. A justice of the Supreme Court, for good cause
shown, may extend the time for applying for a writ of certiorari for a period
not exceeding sixty days.
G.28 U.S.C. § 2201(a) states in part:
In a case of actual controversy within its jurisdiction, . . . any court of the
United States, upon the filing of an appropriate pleading, may declare the
rights and other legal relations of any interested party seeking such
declaration, whether or not further relief is or could be sought. Any such
declaration shall have the force and effect of a final judgment or decree and
shall be reviewable as such.

Relevant State Provisions
H. Vermont Constitution
1) Chapter 1, Article VI states that:
That all power being originally inherent in and consequently delivered
from the people, therefore, all officers of government, whether legislative or
executive, are their trust[e]es and servants; and at all time, in a legal way,
accountable to them”.
2

2) Chapter 1, Article XI states that:
That the people have a right to hold themselves, their houses, papers, and
possessions, free from search or seizure; and therefore warrants, without
Oath or Affirmation first made, affording sufficient foundation for them,
and whereby by any officer or messenger may be commanded or required to
search suspected places, or to seize any person or persons, his, her or their
property, not particularly described, are contrary to that right, and ought
not to be granted.

I. Vermont Statutes
1)

1 V.S.A. §311: (Declaration of Public Policy)

(a) In enacting this Subchapter, the Legislature finds and declares that
public commissions, boards, and councils and other public agencies in this
State exist to aid in the conduct of the people’s business and are accountable
to them pursuant to Chapter 1, Article VI of the Vermont Constitution.
(b) This subchapter may be known and cited as the Vermont Open
Meeting Law.
2)

1 V.S.A. §314: (Penalty and Enforcement)

(b)(1) Prior to instituting an action under subsection (c) of this section,
the Attorney General or any person aggrieved by a violation of the provisions
of this subchapter shall provide the public body written notice1 that alleges
a specific violation of this subchapter and requests a specific cure of such
violation. The public body will not be liable for attorney’s fees and litigation
costs under subsection (d) of this section if it cures in fact a violation of this
subchapter in accordance with the requirements of this subsection.

l

See App.Cl (Petitioner’s Written Notice of Claims)

3

(b)(3) Failure of a public body to respond to a written notice of alleged
violation within 10 calendar days2 shall be treated as a denial of the
violation for purposes of enforcement of the requirements of this
subchapter.
(c) Following an acknowledgment or denial of a violation and, if applicable,
following expiration of the 14-calendar-day cure period for public bodies
acknowledging a violation, the Attorney General or any person aggrieved by
a violation of the provisions of this subchapter may bring an action in the
Civil Division of the Superior Court in the county in which the violation has
taken place for appropriate Injunctive Relief or for a Declaratory
Judgment3.—An action may be brought under this section no later than one
year after the meeting at which the alleged violation occurred or to which
the alleged violation relates.—Except as to cases the court considers of
greater importance, proceedings before the Civil Division of Superior Court,
as authorized by this section and appeals therefrom, take precedence on the
Docket over all cases and SHALL be assigned for hearing and trial or for
argument at the earliest practicable date and expedited^ in every way.
3)

12 V.S.A. § § 4711-4725: (Declaratory judgments Act)5
§ 4711. Declaratory judgment; scope

Superior Courts within their jurisdictions shall have power to declare
rights, status, and other legal relations whether or not further relief is or
could be claimed. An action or proceeding shall not be open to objection on
the grounds that a declaratory judgment or decree is prayed for. The
declaration may be either affirmative or negative in form and effect. Such
declarations shall have the force and effect of a final judgment or decree.

3

See App.Cl [Written Notice of Claims §XI (Affidavit of Notice of Claims For Good Cause)]

Petitioner brought this Action under 1 V.S.A. §314 requesting Injunctive Relief through Declaratory Judgment.
4 Petitioner’s lower courts pleadings clearly identified in the caption of all filings as an “EXPEDITED ACTION.”
5 See Full Text of Chapter in APPENDIX—T (Relevant State Provisions)

4

STATEMENT OF THE CASE

The Due Process Clause of the United States Constitution entitles a person
to an impartial and disinterested tribunal in civil cases. This neutrality
requirement in adjudicative proceedings safeguards two central concerns.
First, it prevents an unjustified or mistaken deprivation of property.
Second, it promotes participation and dialogue by litigants in the decision
making process.
Nature of the Case
This is a small case as cases go, but it raises a significant principle:
Judges, including Supreme Court’s Justices, are required to follow the law.
In this case, the trial-court decided a case on a point not raised by
the parties, and without notice to the parties that it might do so.
All issues raised, were instructed to recall the statutory requirement
verbatim which became “law” within the perimeters of this case. See
(APP—R).
We bring to this Court’s attention, Respondent’s acquiescence to Written
Notice of alleged violation (APP—S) lightened the Legislature intent and
theory of structure on which the conduct of “public body” was predicated in
this particular matter, guiding the Trial-Court with specific process
analysis to each and every averment whether or not the alleged violation
has been cured and or adopting specific measures that actually prevent

5

future violations on the matter at issue. Read 1 V.S.A. §314(d). Respondent
Public Body’s failure to respond to Written Notice of alleged violation has
knowingly and intentionally violated Petitioner’s basic general rights,
facing a realistic danger of sustaining a direct injury as a result of
implementation,

operation,

or

enforcement

of unlawful Acceptance

Conditions (APP—S) p.8-9. Thereby, Petitioner prayed for the return of all
properties and the making of the complainant whole by reversing the acts,
and or actions of the Respondent related to this matter and for a
Declaratory Judgment with an injunction relief against the opposing
party from acting outside the scope of the agreement. See (APP—H) p.10,
(APP—K) p.5, (APP—R) p.8 (Prayer for Relief); The Trial-Court failed and
abdicated its duty to uphold the Vermont Constitution by refusing to
entertain Petitioner’s Declaratory Relief as matter of law; 1 V.S.A. §314.
A.

The Trial Court Proceedings and Preserved Issues for Review

The trial-court misapplied the law of the case. The statutory language
involved is unique, to that the relevant inquiry is the intent of the
legislature in drafting the statute, and its language and subject matter
indicate that Respondent is ought to aid “people’s business” and at all
time, in a legal way, accountable to them (APP—R) Pet. f6, 1 V.S.A.
§311, §314 and also 12 V.S.A. § 4711: Declaratory judgment, which in part
states that “An action or proceeding shall not be open to objection on the
grounds that a declaratory judgment or decree is prayed for”. The Trial-

6

Court (APP—C) denied all pending live motions including Petitioner’s
(APP—M) Motion to Strike Respondent’s 12(b)(6) motion, Final Default
Judgment (APP—L) and Declaratory Judgment (APP—K) as moot despite
the Opposing party has waived all rights, defenses, and or objections and
yet despite knowledge of these waivers is attempting to circumvent the
process and commit a fraud upon the court. See (APP—N) (APP—O) (APP—
P) (APP—Q) (Waiver and the Sherriff Dept’s Return of Service on Vermont
Attorney

General);

(APP—C)

suggesting filing

a

second Amended

Complaint which was nothing more than a charade effects. It rendered all
pending live motions denied as moot, then wrote the “Statement of Facts
and Conclusions of Law,” with no reference to the purported record, and the
judge rubber-stamped Respondent claims, and the court denied itself
jurisdiction by not strictly adhering to the statute, thereby implicating
conspiracy.
We approach this Court highlighting the fact that, Laws are designed to
protect the weak, not the strong in spite of all the above, the trial-court
failed to Uphold Petitioner’s constitutional rights, the Equal Protection Act.
(—It is the duty of Court of Equity to consider and weigh the relative injury
sought to be cured as compared with the hardship of injunctive relief). The
erroneous application of law was preserved.

7

B.

The Appellate Court Proceedings and Preserved Issues for Review
Petitioner then moved the Vermont Supreme Court which at first
attempt refused to review the case as was misconstrued not for a Direct
Appeal as filed through the means of Direct Appeal process6 ,but for
Interlocutory Appeal (APP—F). Despite all facts and the controlling law of
the case are settled and that the trial-court refused to upholding Petitioner’s
claimed Constitutional Rights and violating Petitioner’s “Due Process” rights,
by denying Respondent’s 12(b)(6) motion outright, and all remaining motions
denied as moot, there were nothing left accordingly to Vermont Rule of
Appellate Procedure, VRAP 4. By denying twice Petitioner’s timely filed
rehearing of its erroneous and misapplication of law, Vermont Supreme
Court intentionally and deliberately violated its own rules and its own
established cases law just so to penalize Petitioner for that choice on the
mere technicality that an appeal was and still is available from the judgment
order. Undue harsh effects, inasmuch as its intent suppressed Petitioner’s
right of having his day in court on the merits. Rules are rules, and as pro se
litigant, I am invoking my rights to prevent hardship or injustice and thus
shall be liberally construed and applied. Greenmoss Builders, Inc. v. Dun
Bradstreet, Inc., 149 Vt. 365, 368, 543 A.2d 1320, 1322 (1988). Petitioner has
met his burden and established that the trial-court abused its discretion. All
Petitioner is stressing is his pro se status and emphasizes the duty of the

6 VRAP 4(b)(5)

8

court to treat pro se litigants fairly as other Justices did in Vahlteich v. Knott,
139 Vt. 588, 590, 433 A.2d 287, 288 (1981); State Highway Board v. Sharrow,
125 Vt. 163, 164, 212 A.2d 72, 73 (1965). Instead of using its discretionary
powers in order to prevent a miscarriage of justice, the judicial officers need
to encourage pro se litigant who working hard to meet his burden, and not
7

turning the blind eye, as is in this case for review by misconstruing both the
Intermediate

Direct

Appeal

(No.2020-107)

and

the

“invited

error’

Interlocutory Appeal (No.2020-162). See (APP—G) (the 6/10/2020 Trial-Court
Transmittal of Appeal to Vt. Supreme Court, a full case Management.)
Courts don’t construe a notice of appeal to restrain themselves of
jurisdictional review for only dismiss it. It is Petitioner’s contention that this
case presents an “unconscionable advantage” taken of a pro se litigant. The
erroneous application of law was preserved (APP—H) p.7 fflf 16-17 for
this Court’s review for lower court violated Petitioner’s Civil Rights, the Equal
Protection of the laws secured by the U.S. Constitution Amendment XIV
C.“Invited Error”
1. In its Opinion (APP—C), the trial-court was clearly apprised of
important and relevant facts which could have defeated the motion for
Declaratory Judgment though there is no such authority, it just relied on the
doctrine of judicial self-restraint derives from Article III of the United States
Constitution, which states that federal courts have jurisdiction only over
7

Although there are two appeals assigned with different number (by the same parties), there is but one case
throughout from the Trial-Court to here. See (APP—G)

9

actual cases or controversies. U.S. Const, art. Ill, §2, cl. 1; Parker v. Town of
Milton, 169 Vt. 74, 76-77, 726 A.2d 477, 480 (1998). Vermont has adopted the
case-or—controversy requirement. Id. at 77, 726 A.2d at 480. The case-orcontroversy of Article III incorporates the doctrines of standing, mootness,
ripeness, and political question, all of which help define and limit the role of
the courts to ensure proper balance among the three branches of government.
Hinesburg Sand & Gravel Co. v. State, 166 Vt. 337, 340, 693 A.2d 1045, 1047
(1997). In Hanesburg Sand, the Vermont Supreme Court noted that “[o]ne of
the ‘passive virtues’ of the standing doctrine [and case-or-controversy
requirement] is to promote judicial restraint by limiting the occasions for
judicial intervention into political process.” Id. at 340-41, 693 A.2d at 1047-48
(citing A. Bickel, The Least Dangerous Branch 111-98 (2d ed. Yale Univ.
Press 1986) (1962)). Thus, for a court to maintain its proper role among the
three branches of government, it must exercise judicial restraint by not
asserting jurisdiction over claims that are moot or not yet ripe, or that pose a
political question. See id. Supra noted additionally, “If a plaintiff does not
have standing, a court must exercise judicial restraint and dismiss the
complaint for lack of subject-matter jurisdiction”. See id. at 341, 693 A.2d at
1048. “Prudential judicial restraint in and of itself, however, does not excuse
the court from its duty to uphold the Constitution”.
2. Under Vermont Rule of Appellate Procedure 4, the court has
incorporated the Pioneer factors to define “excusable neglect” for purposes of

10

extending the appeal period. In re Town of Killington, 2003 VT 87A, f 16, 176
Vt. 60, 838 A.2d 98. Even if the Vermont Supreme Court correctly interpreted
its Rule 5(b)(APP—B), Petitioner’s rehearing motion (APP—H) to which no
opposition response were filed, placed the court on notice that he is bringing
his appeal as of right taken which involved the filing of motion for relief
under Rule 59 (APP—J) and(APP—I) p.2 fn.2 which shall be treated as
Judgment. When a party alleges grounds for relief from judgment under Rule
4, the rule requires only that the motion be filed “within a reasonable time”
but “not more than one year after the judgment, order, or proceeding was
entered or taken”. Also, Bingham v. Tenney, 154 Vt. 96, 573 A.2d 1185 (The
decision on a motion for relief from judgment is committed to the sound
discretion of the trial-court and will stand on review unless the record clearly
and affirmatively indicates that such discretion was withheld or otherwise
abused.)
3.

Vermont, with exception gives a litigant an appeal of right to

its Supreme Court from a decision of its courts that “directly involves a
substantial question arising under the Constitution of the United States or of
this State.” See pertinent provisions here:
• V.R.A.P. 4. Appeal as of Right—When Taken—
Rule 4(b) Tolling: If a party timely files in the superior court any
of the motions referenced below, the full time for appeal begins to run for all
parties from the entry of an order disposing of the last remaining motion:
4(b)(5) : grating or denying a V.R.C.P. 59 motion to alter or
amend the Judgment8
8

Read VRAP 3(a) also See (APP—J)

11

• V.R.A.P. 3. Appeal as of Right—How Taken—Rule 3(a):
—A judgment that is reviewable as of right in the Supreme Court
may only be reviewed by appeal in accordance with these rules. An appeal
from a judgment preserves for review any claim of error in the record,
including any claim of error in any of the orders specified in Rule 4(b). An
appeal designated as taken from an order specified in Rule 4(b) will be
treated as an appeal from the “ Judgment”

4.

When confronted with the situation arising from “invited

error” above, this Court shall consider its ruling in Matthews v. Huwe, 269
U.S. 262, 265 (1925). In Matthews, Chief Justice Taft, an Ohioan writing for
the Court, explained the appropriateness of the appeal from the Ohio
Supreme Court:
“It is one of those not infrequent cases in which decision of the
merits of the case also determines jurisdiction. The petition was dismissed,
not because the court was really without jurisdiction, for it could have taken
it, but because the question was regarded as frivolous, which is a different
thing from finding that the petition was not in character one which the Court
could consider.” 269 U.S., at 265.
This reasoning is applicable to the present case: there is no
question that the Vermont Supreme Court had jurisdiction to hear
Ndibalema’s appeal, but it determines not to do so in light of its conclusion
(APR—E) that Appellants’ motion (APP—I) for its dismissal of the (Direct)
Appeal is denied. Accordingly, his other motions are denied as moot.” We
bring this up for this Court having jurisdictional question resolved so that
practitioners may be certain of their ground. In the absence of the positive
assurance to the contrary from the Vermont Supreme Court, this Court may
consider that court’s dismissal of Ndibalema’s appeal to be a decision on the
12

merits. Cf. Michigan v. Long, 463 U.S. 1032, 1037-1044 (1983). With no such
contrary assurance in the present record, this Court shall proceed with the
review under 1257.
D. “Declaratory Judgment”

5. On the merits, the crucial issue is whether Petitioner properly
challenged on federal constitutional grounds the validity of the Acceptance
conditions imposed (APP—S) upon him to operate his business without the
commissioner’s interference, and whether the Vermont Statute Section 314 of
General Rights, is the Legislature’s remedy for the constitutional defects that
Petitioner Mr. Ndibalema alleges in their Written Notice of Claims (APP—S).
Whether or not the Legislature has structured “Public Commissions, Boards,
and Councils and other public agencies in this State exist to aid in the conduct
of the people’s business and are accountable to them” is constitutional issue
properly before the Trial-Court, theretofore before this Court for review.
6. Under 28 U.S.C. 1257, appellate jurisdiction lies in this Court
to review a “final” judgment rendered by the highest court of a State in which
a decision could be had...(2)...where is drawn in question the validity of a
statute of any state on the ground of its being repugnant to the Constitution,
treaties or laws of the United States, and the decision is in favor of its
validity.”

13

7.

Moreover, Mr. Ndibalema constitutional claims that

“Acceptance Conditions”(APP—S) p.8-9 violate his Civil Rights is similarly
deserving of this Court’s attention, because it is the province of the Court to
decide whether Vermont’s laws comply with the State Constitution. —As the
lower court held: “The doctrine of judicial restraint does not allow the court to
relinquish its duty to interpret the Constitution when judicial intervention
may potentially block legislative action”. Therefore, the Trial Court shall
have issued the declaratory relief requested. 12 V.S.A. §4711. (APP—K).
The Trial Court ignored warnings of a “disturbing surge” of obstructing the
administration of justice from the outset, turning to Discriminatory
punchline; see (APP—S) Petition Iff 10-19
8. We conclude based upon review of the entire record (APP—G)
that the trial court abused its discretion when, given these circumstances, it
denied Petitioner’s Rule 57 Declaratory Judgment (APP—K) among other
motions were pending over a course of 12 months being in the limbo. See
(APP—J). The erroneous application of law was preserved.
9.

The Vermont Supreme Court as state court of last resort,

dismissed the Appeal due to circumstances of its own “invited error”
explained above in which a decision could be had and whereby is drawn in
question the validity of Acceptance Conditions” (APP—S) on the ground of
its being repugnant to the Constitution, treaties or laws of the United
States, and the decision is in favor of its validity.”

14

The questions presented to this Court are restated in order to apply the
relevant law stated throughout the body of Writ of Certiorari:

1) Whether the Existence of another Adequate Remedy does
preclude a Judgment for Declaratory Relief given the Facts
and Law on the Record, whether the Vermont’s court of last
resort has decided on important question of Law that has not
been, but should be, settled by the US Supreme Court?

2) Do Commissioner-created rasping, non-statutory restricted
conditions inflicted upon Petitioner’s business constitute a
deprivation of property without due process of Law under the
Fourteenth Amendment?

3) Does weekly Petitioner’s business data reporting as part of
conditions requirement to Commissioner for the purpose of
obtaining information constitute a search under the Fourth
Amendment?

REASONS FOR GRANTING THE WRIT
As stated throughout the Statement of this case for Writ of Certiorari;
Petitioner had a right to a speedy jury trial, Pernell v. Southhall Realty, 416
U.S. 363 (1974), “Parties whose rights are to be affected are entitled to be
heard; and in order that they may enjoy that right they must be notified. It
is equally fundamental that the right to notice and an opportunity to be
heard must be granted at a meaningful time and in a meaningful manner”
Whether the Vermont Supreme Court, as a court of last resort, has
1.
decided on important question of Law that has not been, but should be,
settled by the US Supreme Court? And these are Petitioner’s main reasons.
15

2.
Whether or not the Vermont Supreme Court has decided an
important question in a way that conflicts with relevant decisions of the
other States appellate courts.
3.
Review Of This Case Is Also Warranted Because The Opinion Of The
Vermont Supreme Court Is Not Neutral And Is One Of National
Importance Because It Expands Interpretation Of The Establishment
Clause.
4.
Review Of The Decision by The Vermont Supreme Court Is Also
Warranted To Avoid A Need For Unnecessary And Costly Litigation. First.
this decision may be a springboard for piecemeal litigation in the other
Federal and State Courts throughout the Country. Second, the decision by
the majority panel may result in civil actions for damages or other relief
against litigants throughout the Nation. Third, the most effective way to
prevent this unnecessary and expensive litigation would be for this Court to
either summarily reverse the decision by the Vermont Supreme Court in
this case or to grant review because of potential impact on the nation by
this decision.
5.
A need for a uniform of last resort throughout the United States is
fundamental in establishing and preserving a sense of national unity and
identity for justice.

CONCLUSION
The petition for Writ of Certiorari should be granted.
Respectfully submitted,

<S/t~
Date:

1o

&&3.0

16

